NO. 20-1162
In the

Supreme Court of the United States
________________
MAINE COMMUNITY HEALTH OPTIONS,
Petitioner,
v.
UNITED STATES,
________________

Respondent.

COMMUNITY HEALTH CHOICE, INC.,
Petitioner,
v.
UNITED STATES,
Respondent.
________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
________________
REPLY BRIEF FOR PETITIONERS
________________
STEPHEN J. MCBRADY
PAUL D. CLEMENT
CROWELL &
Counsel of Record
MORING LLP
ERIN E. MURPHY
1001 Pennsylvania Ave., NW C. HARKER RHODES IV
Washington, DC 20004 ELIZABETH HEDGES
(202) 624-2547
KIRKLAND & ELLIS LLP
smcbrady@crowell.com 1301 Pennsylvania Ave., NW
Washington, DC 20004
Counsel for Maine
(202) 389-5000
Community Health
paul.clement@kirkland.com
Options
Counsel for Petitioners
(Additional Counsel Listed on Inside Cover)
June 1, 2021

WILLIAM L. ROBERTS
FAEGRE DRINKER
BIDDLE & REATH LLP
2200 Wells Fargo Ctr.
90 South 7th Street
Minneapolis, MN 55402
(612) 766-7000
william.roberts@faegredrinker.com
Counsel for Community
Health Choice, Inc.

TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
REPLY BRIEF ............................................................ 1
I.

The Federal Circuit’s Decision Cannot Be
Reconciled With Maine Community ................... 2

II. The Federal Circuit’s Novel “Mitigation”
Theory Has No Grounding In The Statutory
Text Or The Common Law .................................. 4
III. The Question Presented Is Exceptionally
Important ........................................................... 12
CONCLUSION ......................................................... 13

ii
TABLE OF AUTHORITIES
Cases
Barnes v. Gorman,
536 U.S. 181 (2002) .................................................. 6
Bowen v. Massachusetts,
487 U.S. 879 (1988) .................................................. 5
Maine Cmty. Health Options
v. United States,
140 S.Ct. 1308 (2020) ....................................... 2, 4, 5
Wicker v. Hoppock,
73 U.S. (6 Wall.) 94 (1867)....................................... 7
Statutes
42 U.S.C. §18071 ................................................ 4, 8, 9
5 U.S.C. §5596 ............................................................ 7
Other Authority
U.S.Br.49, Maine Cmty. Health Options v.
United States, No. 18-1023 (U.S. filed Oct.
21, 2019) ................................................................... 3

REPLY BRIEF
The government has no real defense for the
Federal Circuit’s latest attempt to excuse it from
complying with its unambiguous shall-pay obligations
under the Affordable Care Act (“ACA”). As this Court
held just last Term in Maine Community, when the
government fails to honor a clear statutory shall-pay
obligation, a private party that performs in full has a
Tucker Act remedy for the shall-pay amount. That
holding leaves no room for the Federal Circuit’s
misguided attempt to reduce the government’s
obligations by inventing a novel “mitigation” theory
with no basis in the statutory text or the common law.
The government does not unearth a single case in
the history of the common law that invokes mitigation
principles to reduce the recovery of someone who has
fully performed in response to a promise to pay a sum
certain for that performance. Not one. Nor does it
identify anything in the ACA or the Tucker Act that
supports paying petitioners less than the specific
amounts Congress mandated. When the government
defaults on unambiguous shall-pay obligations under
a money-mandating statute, the plain and obvious
remedy is to mandate payment of the full amount of
money Congress mandated.
The government’s
convoluted alternative, under which clear statutory
obligations are zeroed out and the government may
ignore statutory mandates in perpetuity, has nothing
to recommend it. It contradicts Maine Community,
unsettles well-settled law, and makes the government
an unreliable contracting partner. The stakes here
run to the billions and extend well beyond this case.
This Court should grant review.

2
I.

The Federal Circuit’s Decision Cannot Be
Reconciled With Maine Community.

As Maine Community made crystal clear, when
Congress enacts a statute unambiguously requiring
the government to make specified payments, and the
government defaults on its shall-pay obligations, the
remedy is straightforward: the government must pay
the full “unpaid amounts” that the statute mandates.
Maine Cmty. Health Options v. United States, 140
S.Ct. 1308, 1315 (2020); see Pet.21-26. That was
neither a stray remark nor dictum. This Court was
acutely aware of both the outsized stakes and the
government’s effort to pay pennies on the dollar.
Maine Community nonetheless reiterated the
government’s obligation to pay in full, emphasizing
that the government was required “to pay insurers the
full amount set out in [the statutory] formula,” 140
S.Ct. at 1319; stressing the government’s obligation to
pay “whatever amount the statutory formula
provides,” id. at 1321; and explicitly rejecting the
government’s view that “a partial payment would
satisfy the Government’s whole obligation,” insisting
instead that the government was required to pay “the
sum that [the statute] prescribes.” Id. In short, when
a statute sets out a clear money-mandating command
that the government shall pay “specific sums already
calculated, past due, and designed to compensate for
completed labors,” the remedy for a breach of that
statutory command is an order to pay the “specific
sums” that the statute requires. Id. at 1330-31.
Maine Community leaves no room for the
government’s attempt to escape its clear statutory
obligations by paying some lesser amount.

3
The government has no plausible basis to
distinguish Maine Community. It claims that Maine
Community “did not present” this mitigation issue,
BIO.22-23, but that is only because the Federal
Circuit’s theory is so implausible that it never
occurred to the government in either Maine
Community or the earlier stages of this litigation. It
is not because the argument would have been
inapplicable in the risk-corridors context. The briefing
in Maine Community made clear that the
government’s failure to make risk-corridor payments
“caused premiums to increase,” meaning that at least
some insurers received additional premium tax
credits. U.S.Br.49, Maine Cmty. Health Options v.
United States, No. 18-1023 (U.S. filed Oct. 21, 2019).
The fact that the government never even suggested
that those increased tax credits should decrease its
shall-pay obligations under §1342 is a testament to
the argument’s implausibility, but it is not a basis for
distinguishing Maine Community or disregarding the
basic principle that the violation of a shall-pay
obligation calls for a shall-pay remedy. Pet.25-26. 1
Indeed, even the government is ultimately forced
to concede that Maine Community unequivocally
recognized “a Government obligation to pay insurers
the full amount set out” in the statute. BIO.23
(emphasis added) (quoting Maine Cmty., 140 S.Ct. at
The government suggests Maine Community was different
because insurers set premiums and sold coverage before
Congress enacted its appropriations riders each year. BIO.22-23.
But here too, insurers set premiums and sold coverage each year
before Congress decided whether to appropriate funds to meet the
government’s unambiguous obligations under §1402. Pet.8-10.
1

4
1319); see also Maine Cmty., 140 S.Ct. at 1321
(“whatever amount the statutory formula provides”);
id. (“the sum that [the statute] prescribes”). Its
suggestion that this unambiguous language addressed
only “the duty imposed,” not the resulting “damages
owed,” BIO.23, is flatly inconsistent with Maine
Community’s instruction (which the government
never addresses) that the remedy for breach of a
mandatory shall-pay obligation is “a damages remedy
for the unpaid amounts.” 140 S.Ct. at 1315 (emphasis
added). It is also inconsistent with the reality that the
government in fact paid the full amount of its §1342
shall-pay obligations, sans any “mitigation” or other
discounts. That full payment was neither voluntary
nor profligate. It is the remedy this Court commanded
in Maine Community.
II. The Federal Circuit’s Novel “Mitigation”
Theory Has No Grounding In The Statutory
Text Or The Common Law.
The decision below contravenes not only Maine
Community, but also the clear statutory text and the
common-law principles it purports to apply. The plain
text of §1402 establishes unambiguous obligations on
insurers and the government: Insurers must provide
the required cost-sharing reductions (as petitioners
did), and in return, the government “shall make
periodic and timely payments” to the insurer “equal to
the value of the reductions.”
42 U.S.C.
§18071(c)(3)(A). The Federal Circuit had no license to
judicially amend the latter statutory command by
reducing the amounts the government indisputably
owed under §1402 by the amounts it was equally
required to pay under §1401. Those are two separate

5
statutory requirements, and nothing in the text of
either so much as hints that payments under one
reduce the government’s obligations under the other.
Pet.27-29. Nor is there any support in the annals of
the common law for the notion that “mitigation”
principles have a role to play when a party performs
in full in response to a promise to pay a sum certain.
Challenged to come up with a single case supporting
mitigation in those circumstances, the government
came up empty, while countless decisions (including
from this Court) hold the opposite. Pet.29-32. The
Federal Circuit’s dramatic departure from statutory
text and settled common-law doctrine cannot stand.
1. The government suggests that the Federal
Circuit properly reached outside the statutory text
because the ACA “does not provide a remedial
framework.” BIO.16 (quoting Pet.App.14-15). But as
Maine Community makes abundantly clear, the
absence of a separate ACA remedy is a necessary
precondition for a Tucker Act remedy, not an excuse
for judicial free-lancing. And under the Tucker Act,
the remedy for the government’s violation of a moneymandating statute is clear: The government must pay
“the sum that [the statute] prescribes,” not some
smaller sum reduced by judicial fiat. 140 S.Ct. at
1321. Or in Justice Scalia’s words (twice quoted in
Maine Community), a statute like §1402 “impliedly
authorizes (absent other indication) a claim for
damages in the defaulted amount”—not whatever
lesser amount the Federal Circuit deems appropriate.
Id. at 1328 n.12, 1329 (emphasis added) (quoting
Bowen v. Massachusetts, 487 U.S. 879, 923 (1988)
(Scalia, J., dissenting)).

6
The government’s principal support for its
contrary argument is Barnes v. Gorman, 536 U.S. 181
(2002). See BIO.17-18, 24. But even the briefest
glance at Gorman is enough to distinguish it. Gorman
is limited to spending-power conditions and does not
so much as mention “mitigation,” which likely
explains why the government never mentioned
Gorman in its merits briefs below. 2
Gorman held that the judicially inferred cause of
action against federal-funds recipients under Title VI
does not allow punitive damages. 536 U.S. at 185-86.
The Court observed that spending-power “legislation
[i]s much in the nature of a contract,” and that
conditions imposed on recipients of federal moneys
must be unambiguous. Id. at 186 (emphasis omitted).
Because nothing put recipients on notice of liability for
punitive damages, which “are generally not available
for breach of contract,” id. at 187-88, the Court refused
to allow punitive damages.
Nothing in Gorman justified the Federal Circuit’s
deviation from the text here. Section 1402 does not
impose spending-power conditions on recipients of
federal funding, so Gorman is wholly inapposite. The
cost-sharing-reduction obligations are not grant
conditions, cf. BIO.25 (describing them as
“freestanding obligation[s]”), and it is undisputed that
petitioners satisfied them. And to the extent Gorman
requires unambiguous text before the judiciary can
impose novel judge-made remedies burdening
participants in a federal program, Gorman would
2 That makes the government’s effort (at 20-21) to chide
petitioners for not devoting attention to that plainly inapposite
case rather rich.

7
seem to preclude the Federal Circuit’s modification of
a clear statutory shall-pay obligation in favor of a
judge-made “mitigation” doctrine. Finally, the notion
that anything in Justice Scalia’s opinion for the Court
in Gorman addressing punitive damages under Title
VI meant to undermine his considered views about
Tucker Act remedies in Bowen does not pass the
straight-face test. 3
2. Even if Gorman made contract-law principles
relevant, it would not justify the Federal Circuit’s
novel “mitigation” theory, which deviates from settled
contract-law principles. As this Court recognized long
ago, and countless courts have repeated since, there is
no role for mitigation when one party performs and the
other simply fails to pay the amount owed in return.
Wicker v. Hoppock, 73 U.S. (6 Wall.) 94, 100 (1867); see
Pet.30 (citing cases); Chamber.Br.13-16.
The
government makes no attempt to respond to those
cases, let alone identify any contrary decision in the
long history of the common law.
Indeed, the
government’s Table of Authorities speaks volumes: It
cites just eight federal cases, and not a single statecourt decision or treatise. In fact, the government’s
entire discussion of mitigation doctrine does not cite a
single case or treatise. BIO.24-29. That complete
absence of support underscores that the Federal
The Back Pay Act cases likewise provide the government no
support. Contra BIO.18. That statute explicitly provides for
mitigation of damages, see 5 U.S.C. §5596(b)(1), underscoring
that Congress knows how to incorporate mitigation principles
when it chooses. Moreover, the mitigation doctrine courts have
applied under the Back Pay Act is the traditional common-law
doctrine—not the unprecedented theory that the Federal Circuit
invented here. See Pet.29-32.
3

8
Circuit was not importing common-law contract
principles or anything else. It was just deviating from
statutory text and inventing a doctrine to dilute the
government’s shall-pay obligations out of whole cloth.
Unable to identify any authority for the Federal
Circuit’s novel “mitigation” theory, the government
tries to change the subject, accusing petitioners of
“mischaracteriz[ing] the nature of the statutory
bargain” and not upholding their end of the bargain.
BIO.25-26. That is both remarkable and untethered
to anything in the decision below. Section 1402
imposes a clear obligation on insurers: They “shall
reduce the cost-sharing” for their eligible insureds in
accordance with the statute’s requirements. 42 U.S.C.
§18071(a)(2), (c). In exchange, it imposes an equally
clear reimbursement obligation on the government:
The Secretary “shall make periodic and timely
payments to the issuer equal to the value of the
reductions.”
42 U.S.C. §18071(c)(3)(A).
It is
undisputed that petitioners fully performed their
statutory obligation under §1402 to provide costsharing reductions to their eligible insureds (at a cost
of tens of millions of dollars). Pet.10-11. That full
performance by petitioners demands full reciprocal
performance by the government. It should be that
simple.
The government emphasizes that insurers have a
“freestanding obligation” under §1402 to provide the
cost-sharing reductions. BIO.25. No doubt. Unlike
the government, insurers well understood that they
could not shirk their statutory obligations with
impunity. But Congress promised them something in
return—namely, dollar-for-dollar reimbursement. 42

9
U.S.C. §18071(a), (c). In providing the cost-sharing
reductions, petitioners plainly lived up to their end of
the actual statutory bargain.
In shirking its
reimbursement obligations, the government just as
plainly defaulted on its end of that bargain.
The government’s effort to reconceptualize the
bargain has no basis in the statute (or even the
decision below). According to the government, the
“statutory bargain” was that insurers “would not
increase their premiums to cover the expense of [the]
statutorily mandated cost-sharing reductions.”
BIO.25-26. But that is simply not what the statute
says. Nothing in §1402 or anything else in the ACA
imposed a duty on insurers not to increase premiums
to cover the expense of cost-sharing reductions
(presumably because the government was statutorily
obligated to reimburse those cost-sharing reductions
directly). Congress did not purport to restrict insurers
from seeking premium increases in the event of a
government default because it expected the
government to honor the statutory bargain. For the
government to breach its unambiguous obligation to
reimburse cost-reduction payments and then turn
around and accuse insurers of breaching a different
“statutory bargain” with no grounding in the statute
is an impressive display of chutzpah.
The government likewise argues that petitioners
“distort[] the sequence of the relevant events” by
maintaining that they fully performed, because
petitioners foresaw that the government might fail to
carry out its unambiguous shall-pay obligation under
§1402 and so sought permission from state regulators
to price that risk into their 2018 premiums. BIO.26-

10
27. But the statute itself prescribes the relevant
sequence of events. Insurers must first provide costreductions, and the government must then reimburse
those reductions. In 2018 (and in subsequent years),
insurers upheld their end of the bargain and the
government subsequently defaulted.
Separately,
some insurers sought and (only sometimes) received
premium increases for the next year and received
increased tax credits for some (but not all) of the
insureds paying those higher state-approved
premiums. But the premium-setting and tax-credit
processes were entirely separate from §1402. If, for
example, Congress appropriated funds to make costreduction payments in the middle of a year, it would
have no immediate effect on state-approved premiums
and the resulting level of tax credits. 4
The government’s analogy to an employee who
was promised compensation partly in cash and partly
in stock and paid both only to demand an additional
cash payment for the stock portion, BIO.27, is
mystifying.
Petitioners
were
promised
reimbursement, and so far have not received it in any
specie. If there is an analogy, it would be to a
government that promises full payment to a worker
who works an eight-hour shift and separately
promises $10 an item for workers who do different
piecemeal work. If the government improperly refuses
The government announcement in October 2017 that it would
not comply with its unambiguous §1402 obligations “unless and
until a valid appropriation exists” is equally irrelevant.
Pet.App.51-52, 108. Insurers still needed to wait until the end of
the fiscal year, well after premium rates were set and policies
sold, to learn whether Congress in fact appropriated any funds.
4

11
to pay a worker for the eight-hour shift she worked in
full, and she is consequently forced to do additional
piecemeal work on the weekend to feed her family, the
government is not entitled to a reduction of what it
owes her for her eight-hour shift just because it paid
her for the piecemeal work. They are separate
promises, and principles of mitigation and dire
warnings about a “duplicative recovery,” BIO.28-29,
have no place. The same is true of §1401 and §1402;
they are separate provisions imposing separate
obligations on the government, and nothing in
statutory text, common law, or commonsense gives the
government some two-for-one discount or excuses it
from full payment for petitioners’ full performance
under §1402. 5
3. The government has equally little to say in
defense of the Federal Circuit’s refusal to accept the
logical consequences of its “mitigation” theory. See
Pet.32-33. The government claims there was “no
need” for the Federal Circuit to address whether its
theory would effectively require insurers to raise
premiums in order to mitigate. BIO.28. But if
“mitigation” principles really were applicable, the
government would be entitled to a reduction whether
or not insurers actually raised their rates, and
insurers would have little practical alternative to
raising rates. The government’s unwillingness to
defend that result exposes the flaws in the Federal
Circuit’s novel “mitigation” theory. It is not really a
5 Moreover, the government does not deny that the ACA
includes other provisions that protect against windfalls by
capping insurers’ profits and requiring rebates of any excess to
insureds. Pet.33-34.

12
mitigation theory at all, but an offset for payments
actually received under a separate statutory provision
that provides no indication that payments under one
provision should offset obligations under the other.
Worse still, any doctrine that would require insurers
to increase their premiums, and make health care less
affordable, cannot draw support from the Affordable
Care Act.
III. The Question Presented Is Exceptionally
Important.
The government does not deny the enormous
stakes; to the contrary, its cross-petition confirms
them. U.S.Pet.20-21, No. 20-1432. As petitioners and
their amici have explained, this case implicates not
only billions of dollars in past-due obligations under
§1402, but also the government’s broader credibility
as a reliable business partner.
Pet.34-36; see
Chamber.Br.5-13; ACAP.Br.4-17; Anthem.Br.20-22.
Moreover, in contrast to the risk-corridors program in
Maine Community, which was a limited three-year
program, the government’s obligations under §1402
are ongoing. Thus, not only do the government’s
already staggering unpaid obligations continue to
mount, but the Federal Circuit’s “mitigation” ruling,
like the government’s cross-petition argument,
threatens to make the government’s disregard of its
§1402 obligations permanent. The government has
not made a §1402 payment since 2017, and the
Federal Circuit’s decision eliminates (or at least
substantially dulls) the government’s incentive to
come into compliance and keep its word. This Court
should not sanction this extended disregard of the
government’s statutory obligations.

13
CONCLUSION
This Court should grant the petition.
Respectfully submitted,
STEPHEN J. MCBRADY
PAUL D. CLEMENT
CROWELL &
Counsel of Record
MORING LLP
ERIN E. MURPHY
1001 Pennsylvania Ave., NW C. HARKER RHODES IV
Washington, DC 20004 ELIZABETH HEDGES
(202) 624-2547
KIRKLAND & ELLIS LLP
smcbrady@crowell.com 1301 Pennsylvania Ave., NW
Washington, DC 20004
Counsel for Maine
(202) 389-5000
Community Health
paul.clement@kirkland.com
Options

Counsel for Petitioners
WILLIAM L. ROBERTS
FAEGRE DRINKER
BIDDLE & REATH LLP
2200 Wells Fargo Ctr.
90 South 7th Street
Minneapolis, MN 55402
(612) 766-7000
william.roberts@
faegredrinker.com
Counsel for Community
Health Choice, Inc.
June 1, 2021

